CERTIFICATE OF WORD COUNT
NO. 20-1562
Faye Strain, as Guardian of Thomas Benjamin Pratt,
Petitioner,
v.
Vic Regalado, in His Official Capacity; Armor Correctional Health Services, Inc.;
Curtis Mcelroy, D.O.; Patricia Deane, LPN; Kathy Loehr, LPC,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the VIC REGALADO BRIEF IN
OPPOSITION contains 4567 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dan Abramovich

July 12, 2021
SCP Tracking: Fortney-2617 E. 21 Street-Cover Orange

